UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




           End-of-the-Year Spending


                Report No. OIG-AMR-70-12-02




                                              September 2012
                                             CONTENTS

EXECUTIVE SUMMARY ............................................................................ 1

BACKGROUND.......................................................................................... 2

OBJECTIVE, SCOPE, AND METHODOLOGY............................................... 3

FINDINGS................................................................................................. 4

TRENDS ................................................................................................... 4

RECEIPT AND USE ................................................................................... 7

BONA FIDE NEEDS ................................................................................. 10

  Recommendation ................................................................................ 16

COMPLIANCE WITH THE FAR AND INTERNAL CONTROLS...................... 16

  Recommendation ................................................................................ 20

APPENDIX

        Memorandum from the Acting Acquisitions Management Branch Chief,
        Response to Draft Report “End-of-the-Year Spending” (OIG-AMR-70)
National Labor Relations Board
Office of Inspector General

EXECUTIVE SUMMARY

We performed this audit because, over the years, the audits of the financial
statements have identified violations of the bona fide needs rule. Those audits,
however, reviewed only the procurement actions that were above $100,000.
Given that the majority of procurement actions are below $100,000, we decided
that it was prudent to test procurement actions that involve amounts below
$100,000 to determine the extent to which violations of the bona fide needs
rule are occurring in the NLRB’s procurement function.

We were also aware of comments by the procurement staff that end-of-the-year
procurement actions create significant workload pressures. Our concern was
that those pressures could degrade the internal control environment for the
procurement function and lead to errors, as evidenced by the findings in the
audits of the financial statements.

It is perhaps not surprising that a significant amount of procurement activity is
occurring at the end of the fiscal year. To better understand the end-of-the-
year procurement environment, we believe it is useful to compare the level of
work occurring at year’s end with mid-year work. That comparison for Fiscal
Year 2011 showed that the work for the Agency’s procurement function was
four times greater in September than it was in June and that 71.5 percent of
the procurement actions in September 2011 occurred in the last 2 weeks.
Overall we believe that better financial planning would greatly alleviate the end-
of-the-year pressure placed upon the Agency’s procurement process.

We found that our concerns regarding the degradation of the internal control
process were correct. In addition to identifying $296,410.83 in questioned
costs that resulted from bona fide needs rule violations, we also found a lack of
internal control over the work to ensure that it was properly processed in
compliance with the Federal Acquisition Regulation. This lack of control was
evidenced by both a deliberate disregard for the Agency’s procurement
procedures and what appears to be mistakes due to a lack of sufficient time to
properly complete the procurement actions.

In its response to the draft report, Management agreed with our
recommendations and stated that corrective action would be initiated. The
response also stated that they have taken steps to improve controls over the
financial management of the Agency, including creating an Office of the Chief
Financial Officer. The comments are provided as an appendix to the report.
BACKGROUND

             The bona fide needs rule generally states that an
             appropriation for a given fiscal year is not available for the
             needs of a future fiscal year. The rule is derived from 31
             U.S.C. 1502(a), which states:

                   The balance of an appropriation or fund limited
                   for obligation to a definite period is available
                   only for payment of expenses properly incurred
                   during the period of availability or to complete
                   contracts properly made within that period of
                   availability and obligated consistent with section
                   1501 of this title. However, the appropriation or
                   fund is not available for expenditure for a period
                   beyond the period otherwise authorized by law.

             The bona fide needs rule is particularly important for end-of-
             the-year spending because “[a]n appropriation should not be
             used for the purchase of an article not necessary for the use
             of a fiscal year in which ordered merely in order to use up
             such appropriation . . . [that] would be a plain violation of
             the law.” 8 Comp. Dec. 346, 348 (1901).

             We performed this audit because audits of the financial
             statements have identified violations of the bona fide needs
             rule. Those audits, however, tested only the procurement
             actions that were above $100,000. Given that the majority
             of procurement actions are below $100,000, we decided that
             it was prudent to test procurement actions that involve
             amounts below $100,000 to determine the extent to which
             violations of the bona fide needs rule are occurring in the
             NLRB’s procurement function.

             We were also aware of comments by the procurement staff
             that end-of-the-year procurement actions create significant
             workload pressures. Our concern was that those pressures
             could degrade the internal control environment for the
             procurement function and lead to errors, as evidenced by the
             findings in the audits of the financial statements.




                                   2
OBJECTIVE, SCOPE, AND METHODOLOGY

             The objective of this audit was to review the Agency’s
             procurement process at the end of Fiscal Year (FY) 2011 and
             to determine if those procurements met the requirements of
             the bona fide needs rule. We began this review as an
             inspection, but as we progressed through the fieldwork we
             determined that the number and type of procurement issues
             that we discovered that were unrelated to the bona fide
             needs rule required additional work not contemplated when
             we initiated the inspection and that the level of our review
             would be more properly characterized as an audit.

             We compiled procurement statistics – the number of
             transactions and dollar amounts – for the period from June
             through September 2011. These were the months after the
             Agency received an appropriation and adopted an operating
             plan. We used these statistics to determine trends in the
             procurement workload.

             For the bona fide needs testing, the universe of procurement
             actions for the audit involved obligations for goods and
             services above the micro-purchase level ($3,000) that
             occurred during September 2011. From that universe we
             excluded from our testing items over which the Agency did
             not have discretion and/or were recurring in nature, such as
             space rent, database subscriptions, court reporting, postage,
             and shared governmental IT services. We also excluded
             training obligations because we intend to conduct a separate
             review of the training program.

             We then determined that the scope of the audit contained 78
             procurement actions totaling $4,185,193.09. These actions
             included 63 purchases of goods and services, 13
             modifications, and 2 option exercises. For these
             procurement actions, we reviewed documentation obtained
             from the Acquisitions Management Branch (AMB) and the
             Finance Branch to determine whether the purchase was for
             a bona fide need of FY 2011.

             In testing for bona fide needs, we reviewed documents from
             the contract files. During the review we identified instances
             of noncompliance with the Federal Acquisition Regulation
             (FAR). Our review, however, was generally limited to matters
             that related to funding issues and items that were readily


                                 3
           apparent in the contracting documents. Our findings are
           not the result of comprehensive testing of compliance with
           the FAR.

           We conducted this performance audit in accordance with
           generally accepted government auditing standards during
           the period January 2012 through July 2012. Those
           standards require that we plan and perform the audit to
           obtain sufficient, appropriate evidence to provide a
           reasonable basis for our findings and conclusions based on
           our audit objectives. We believe that the evidence obtained
           provides a reasonable basis for our findings and conclusions
           based on our audit objectives.


FINDINGS
           We found that a significant amount of procurement activity
           is occurring in the last 2 weeks of the fiscal year and that
           there is a lack of internal control over the work to ensure
           that it is properly processed in compliance with the bona fide
           needs rule and the FAR. As a result of the lack of internal
           control, we identified $296,410.83 in questioned costs.


TRENDS

           On July 6, 2011, the AMB Chief issued a memorandum to
           the Agency’s senior managers reminding them of time frames
           for submitting requirements to purchase goods and services.
           Early submission of procurement requests was encouraged.
           Nevertheless, only one of the procurement actions processed
           during September 2011 was received in advance of the
           applicable cut-off date cited in the memorandum, and less
           than half were received before September 15, the date
           identified by the AMB as the date by which all procurement
           actions should be received for processing. We also found in
           two contract files that the Contracting Officer documented
           that the late submission of the request impacted his ability
           to perform the required functions.

           Whether viewed in volume of procurement actions or dollar
           value of procurement actions, it appears that a
           disproportionate amount of procurement activity occurs in
           the final month and the final 2 weeks of the fiscal year.



                                4
June through September 2011


                                    Number of Procurement Actions
  160


  140                                                                                          66

  120


  100


    80
                                                                      22
    60


    40                                                                                         78
                                           13
                19                                                    58
    20
                                           28
                17
     0
              June-11                    July-11                   August-11             September-11

               Transactions within scope                    Transactions outside scope




                                Dollar Amount of Procurement Actions
 $8,000,000


 $7,000,000


 $6,000,000
                                                                                         $2,851,611.12
 $5,000,000


 $4,000,000


 $3,000,000
                                                                   $402,264.52

 $2,000,000                                                                              $4,185,193.09


 $1,000,000                               $210,179.30              $2,095,843.67
               $148,032.18
                $359,384.64               $444,109.36
         $0
                 June-11                    July-11                 August-11            September-11

                     Transactions within scope                    Transactions outside scope




                                                        5
September 2011


                                Number of Procurement Actions (By Week)
  60



  50

                                                                                                            6
  40

                                                                                     43
  30



  20                                                                                                        41

                                                                9

  10                                  6
              2                                                                      13
                                                                11
              6                       7
   0
        September 1 - 2         September 5 - 9        September 12 - 16      September 19 - 23     September 26 - 30


                     Transactions within scope                                 Transactions outside scope




                           Dollar Amount of Procurement Actions (By Week)
 $3,500,000


 $3,000,000


 $2,500,000

                                                                                  $1,372,258.56        $167,177.00
 $2,000,000


 $1,500,000


 $1,000,000                                                                                            $2,108,559.79

                                                                                  $1,538,794.86
                                                             $985,895.56
   $500,000
                  $29,584.00          $296,696.00

                  $156,428.80          $204,655.20           $176,754.44
        $0
              September 1 - 2        September 5 - 9      September 12 - 16     September 19 - 23    September 26 - 30


               Transactions within scope                                       Transactions outside scope




                                                            6
RECEIPT AND USE

             In addition to testing the transactions against the bona fide
             needs rule, which is a legal test, we also reviewed when the
             goods or services would be received as a test of whether the
             use of FY 2011 funds for the purchases would be reasonable.
             For goods, we considered them to be received in FY 2012 if
             the contract file documented that they were actually or
             would be received in FY 2012. Services were determined to
             be received in FY 2012 if the period of performance was
             predominantly in FY 2012. Of the 78 procurement actions
             tested, one procurement action was excluded from this
             analysis because it was terminated before performance
             began. For the remaining procurement actions, 55 (71.43
             percent) involved goods or services that were received in FY
             2012. As shown in the table below, the amount obligated for
             the 55 actions was $3,808,510.55, or 91 percent of the
             universe tested.

           Type of        Received in FY 2012    Received in FY 2011
           purchase      Number      Amount     Number      Amount
           Severable       12    $1,112,232.38     6     $135,933.44
           Services
           Non-             7       $146,085.75    5       $54,724.67
           severable
           Services
           Equipment       12    $1,698,105.15     1       $12,600.00
           Software         4       $477,065.87    2       $63,718.15
           Furniture       14       $297,218.70    0            $0.00
           Supplies         1         $4,555.90    4       $53,493.57
           Subscriptions    2        $21,746.80    0            $0.00
           Publications     3        $51,500.00    3       $30,272.00
           Rental of        0             $0.00    1        $6,105.51
           Equipment
           Total           55    $3,808,510.55    22     $356,847.34
           Percent       71.43%      91.43%     28.57%       8.57%

             As noted in the Objective, Scope and Methodology section,
             we excluded certain procurement actions from our bona fide
             need analysis. Our analysis of those transactions revealed
             that $2,509,604.12 were for goods or services that were
             predominantly received in FY 2012. Those items include




                                 7
obligations for court reporting, databases, postage, and
shared information technology services.

At the NLRB, approximately 90 percent of the annual
appropriation is allocated to personnel and rent costs. In FY
2011, the 10 percent of the appropriation for all other needs
was approximately $28 million. So, the $6.3 million spent in
September, the last month of FY 2011, for goods and
services received predominantly in FY 2012 was
approximately 22 percent of the Agency’s FY 2011
discretionary spending.

This type of end–of-the-year spending creates additional
management issues. When items are procured because it is
the end of the year and there is a concern to spend the
appropriation before it lapses, goods and services may be
procured before they can be used or are needed, resulting in
waste. At the other extreme, the needs of one fiscal year are
not met until the following year. Three situations illustrate
these issues:

   A procurement action came to our attention because of a
    modification that occurred during the period of time that
    was within the scope of the audit, but the end-of-the-year
    spending issue occurred as the result of an FY 2010
    procurement. The Agency procured $367,332 in software
    and a year of license and software maintenance support
    at a cost of $80,813.04 in the last week of FY 2010 using
    that year’s appropriation. Although the Agency’s request
    for quotes included services to install or modify the
    software so it could be used, those services were not
    procured because of budgetary issues. At the time of the
    procurement, the Office of the Chief Information Officer
    (OCIO) staff thought they had a vendor who could install
    and modify the software, but there was no agreement
    with that vendor and the OCIO staff did not have the
    expertise. As it turned out, the vendor that the OCIO
    thought could install the software could not provide the
    personnel to do it. In November 2010, the OCIO
    contemplated canceling the procurement because of
    difficulty in obtaining the needed services. The OCIO
    noted that the procurement was completed in FY 2010 to
    utilize FY 2010 funds. Then in January 2011, the Agency
    procured the services for the modifications to the software
    using FY 2011 funding.

                      8
        At the end of FY 2011, a visitor badging system was
         procured for the Security Branch at a cost of $6,973. The
         system included hardware; software; installation and 1
         year of onsite support; and supplies. In March 2012,
         staff in the Security Branch stated that they received the
         system in October 2011 and installed it, but the system
         has not been used because they were waiting to “integrate
         this system with other projects.” In July 2012, we were
         told that a 60-day pilot of the system was initiated at the
         end of June.

       According to the Chief Information Officer, the
        Government/Industry standard is that personal computing
        devices should generally be replaced on a 4-year life cycle.
        When the CIO decided to procure 800 computers at the
        end of FY 2011, those laptop computers were to be used to
        replace laptop computers that were out of the 4-year life
        cycle. Although there was a need to replace laptop
        computers throughout the fiscal year, it was not until
        September 13, 2011, that he was told that funding was
        available for the procurement of 725 laptop computers.
        Then on September 30, 2011, the Chief Information Officer
        was told that additional funding was available to purchase
        75 laptops.

    While there may be circumstances that justify procuring and
    then delaying implementation, except for the need to spend
    appropriated funds before they expired, we are unaware of
    any compelling circumstance that required the Agency to
    purchase the software or badging system. In the case of the
    OCIO software, there was no clear plan to get from the
    procurement of almost half a million dollars in software and
    services to implementation. For the Security Branch, they
    simply were not yet ready to put the system into service. On
    the other hand, the OCIO had an actual need to replace
    laptop computers that went unmet because the funding was
    not provided until the last weeks of the fiscal year.

    The lack of proper fiscal management resulted in a push to
    spend the appropriation at the end of the fiscal year for
    services that were not used and a failure to meet current
    needs throughout the year. While the waste of taxpayer
    dollars may be small in comparison to the appropriation, it
    represents a waste that could have been avoided.



                           9
BONA FIDE NEEDS

             To understand our findings below, it is necessary to
             understand a few points of appropriation law.

             First, an amount can be recorded against an appropriation
             only when there is an “obligation,” which is a definite
             commitment that creates a legal liability of the Agency for
             the payment from appropriated funds for either goods or
             services. For the procurement actions within the scope of
             this audit, an obligation was created only when there was a
             binding agreement that was in writing, for a purpose
             authorized by law, executed before the expiration of the
             period of availability of the appropriation, and for specific
             goods or services. The primary purpose of these
             requirements is to ensure that there was an offer and an
             acceptance that imposed a legal liability on both parties
             when an amount is recorded against an appropriation.

             Second, services are generally described as either severable
             or non-severable. Severable services can be terminated
             without the Agency losing the benefit of services that it
             already received, while non-severable services need to be
             completed in their entirety for the Agency to receive the
             benefit. Non-severable services are funded in their entirety
             when the procurement action is created, regardless of length
             of time that the services will be provided. Severable services
             are funded from the appropriation that is available when
             they are received. However, there is statutory authority to
             fund severable services that have a period of performance
             crossing fiscal years from funds for the first fiscal year,
             provided that the period of performance does not exceed 12
             months.

             Of the 78 procurement actions tested, we found that 6,
             totaling $278,079.39, were not bona fide needs of FY 2011.
             One was a bona fide need of FY 2010 and five were bona fide
             needs of FY 2012. A review of procurement actions related
             to the items in the universe identified another $18,331.44
             that were not bona fide needs of FY 2011. We consider the
             sum of these items, $296,410.83, to be questioned costs.
             Questioned costs are defined by the Inspector General Act as
             “an alleged violation of a provision of a law, regulation,
             …governing the expenditure of funds.” These procurement
             actions include:


                                 10
   On September 21, 2011, the Agency procured 725 laptop
    computers using FY 2011 funds. At 10:04 p.m. on
    September 30, 2011, the purchase order was modified to
    add an additional 75 laptop computers, at a cost of
    $131,731.50. On the modification document, the
    Contracting Officer marked that the modification was an
    “agreement of the parties” and that the contractor “is
    required to sign this document and return 1 copy to the
    issuing office.” The e-mail message transmitting the
    modification to the contractor also stated that the
    modification needed to be signed and returned. The
    contractor did not sign the modification until October 3,
    2011. Because the modification was not signed by the
    contractor until after the end of FY 2011, there was no
    agreement with the contractor for the purchase of the
    additional 75 laptops computers during FY 2011, and FY
    2011 funds were no longer available when the agreement
    was executed in FY 2012.

   On June 30, 2011, the Agency had 133 Kodak scanners.
    On that date the warranty for 56 scanners expired
    without being renewed. The remaining 77 scanners were
    covered under an extended warranty that ran until
    February 1, 2012.

    On September 28, 2011, AMB created a procurement
    action purporting to acquire an extended warranty for 56
    Kodak scanners that had not had a warranty since June
    30, 2011. The procurement action occurred by a
    modification to the agreement for the extended warranty
    on the 77 scanners by adding the 56 scanners. The
    beginning date of the period of performance, however, was
    July 1, 2011 rather than September 28, 2011 – the date
    that the Contracting Officer signed the procurement
    action. Justification for the backdating of the period of
    performance was achieved by the AMB Chief executing a
    ratification document.

    The Contracting Officer then sent the modification to the
    contractor on September 29, 2011, noting that the
    contractor was required to sign and return it. There is no
    evidence in the contract file that the contractor met that
    requirement. In fact, there was an error on the
    modification and a corrected modification was sent to the
    contractor and then returned by the contractor on

                     11
October 3, 2011. From a bona fide needs analysis, this
procurement action was not a need of 2011 because there
is no evidence that there was an agreement in writing
prior to the end of the period of availability of the FY 2011
appropriation.

Even if the modification had been signed and returned by
the contractor prior to the end of FY 2011, the use of FY
2011 funds was not appropriate because the procurement
action was improper.

At the time the procurement action was completed, there
was no unauthorized commitment that could be ratified.
A ratification is the means by which a Contracting Officer
authorizes the payment to a contractor for an
“unauthorized commitment.” An “unauthorized
commitment” is an agreement that is not binding solely
because the Government representative who made it
lacked the authority to enter into the agreement on behalf
of the Government. In order to approve a ratification and
pay for an unauthorized commitment, the Contracting
Officer must get the concurrence of legal counsel and the
head of the procurement activity.

The Agency’s Special Counsel did not concur with the
ratification as proposed by the Contracting Officer.
According to Special Counsel, he informed the
Contracting Officer that there was not an unauthorized
commitment that could be ratified and that he did not
know of a lawful means of completing the proposed
procurement. Despite the lack of concurrence by the
Special Counsel, the AMB Chief approved the
procurement action as a ratification because, in his
opinion, the procurement was in the best interest of the
Government.

The action by the AMB Chief was improper and an abuse
of his discretion. First, if the AMB Chief honestly believed
that a ratification was the proper course of action, he
lacked the authority to approve a ratification because the
FAR, at 48 CFR 1.602-3(c)(5), limits the authority to
approve a ratification to matters in which legal counsel
concurs that payment is appropriate, unless the agency’s
procedures do not require the concurrence. At the NLRB,
the Office of General Counsel requires that Special
Counsel conduct a legal review of proposed ratifications
                  12
    and that disagreements between the AMB and the Special
    Counsel be brought to the attention of the General
    Counsel and Chairman. The AMB Chief did not act in
    accordance with these procedures. Additionally, the FAR,
    at 48 CFR 1.602-3(b)(2) and (3), provides that ratification
    approval authority resides with the head of the
    procurement activity unless it has been delegated to the
    chief of the contracting office. Although the AMB Chief
    claimed to have the authority to approve ratifications, the
    only document provided in response to our request was a
    delegation of authority dated February 27, 2012.

    In response to our questioning about this procurement
    action, the AMB Chief acknowledged that he was told by
    legal counsel that there was not an unauthorized
    commitment that could be ratified and that despite the
    legal opinion, he executed the ratification document. The
    AMB Chief also stated that after FY 2011 ended, he
    thought about the ratification and researched how he
    could cancel it. He believes he may have canceled it, but
    he does not have documentation of such action. He
    stated that he believed what he did was proper and that
    what really occurred was that the warranty period began
    on September 28, 2011, when the procurement action
    was executed. The AMB Chief also noted that his actions
    saved the Agency money.

    There may have been a means to procure the warranty
    services that were requested by the OCIO, but the
    manner in which AMB Chief went about fulfilling that
    need overrode internal controls for the procurement
    process and degraded the procurement environment by
    establishing and contributing to the negative attitude
    toward internal control and conscientious management.
    Whether the AMB Chief saved the Agency money or not,
    we are unaware of a reasonable justification for his
    approval of what he knew was an improper ratification
    action.

   On September 26, 2011, the Agency procured 50
    speakerphones. The purchase order was modified on
    September 30, 2011, to add an additional eight
    speakerphones at a cost of $2,112.40, which was
    recorded as an obligation against FY 2011 funds. On the
    modification document, the Contracting Officer marked

                     13
    that the modification was an “agreement of the parties”
    and that the contractor “is required to sign this document
    and return 1 copy to the issuing office.” The procurement
    file does not contain a signed copy of the modification.
    Without a copy of the modification document that is
    signed by the contractor prior to the expiration of FY
    2011, there is no obligation for the eight additional
    speakerphones that can be charged against the FY 2011
    appropriation.

   On September 2, 2011, the Agency completed a
    procurement action for furniture costing $121,980.54 for
    a Regional Office that was scheduled to move to a new
    space on April 1, 2012. The furniture was to be delivered
    on or before October 14, 2011 – 42 days after the order.
    Because the move was scheduled for 6 months after the
    end of FY 2011, a fact that was known at the time the
    furniture was ordered, and there was apparently more
    than sufficient time to order the furniture in FY 2012, the
    furniture was not a bona fide need of FY 2011.

   On September 30, 2011, the Agency used a purchase
    card to pay outstanding invoices in the amount of
    $9,145.35 that was recorded against the FY 2011
    appropriation. The invoices were for repairs to the NLRB
    Headquarters space that were authorized by NLRB or
    General Services Administration officials in FY 2010 and
    were invoiced between June 17 and August 10, 2010.
    Because the repairs were authorized in writing and
    occurred in FY 2010, they were a bona fide need of FY
    2010 rather than FY 2011.

   On September 26, 2011, the Agency requested a 1-day
    media training workshop for the Agency heads. The
    Agency completed the procurement without competition
    by executing a Justification for Other than Full and Open
    Competition memorandum based on an “unusual and
    compelling urgency to obtain the service.” The
    procurement action, in the amount of $4,500, occurred
    on September 28, 2011, and was recorded against the FY
    2011 appropriation. The period of performance was
    October 17, 2011 through October 22, 2011. The
    workshop occurred on October 17, 2011.




                     14
    With relatively few exceptions, training is a bona fide need
    of the year in which it occurs. Given that the training did
    not occur for 19 days after it was procured, we find that
    the exceptions do not apply. We also find that there was
    no urgent or compelling need to justify the lack of
    competition.

   On August 30, 2011, the Agency procured Blackberry
    services with a period of performance from September 1
    through September 30, 2011, and recorded the obligation
    against the FY 2011 appropriation. Then on September
    27, 2011, the Agency executed a modification to that
    procurement to continue Blackberry services through
    November 30, 2011 at an amount of $16,219.04, and
    again recorded the obligation against the FY 2011
    appropriation.

    The Agency executed two modifications -- one on
    November 15, 2011, to extend services to the end of
    December 2011 and another on December 9, 2011, to
    extend the services to end of January 2012. The two
    modifications totaled $16,219.04 and were recorded
    against FY 2011 funds.

    The Blackberry services are severable services and are a
    bona fide need of the year in which they are received. As
    noted above, there is a statutory exception if the Agency
    has a period of performance that crosses fiscal years,
    provided the total period of performance does not exceed
    12 months. However, this exception is not available as a
    means to reach back to a prior fiscal year through a
    modification of an existing procurement action because
    such an agreement has to be executed before the end of
    the period of availability of the appropriation. For the
    Blackberry services, the modifications in November and
    December 2011 were after the end of the period of
    availability for the FY 2011 appropriation, so they were a
    bona fide need of FY 2012.

   On September 15, 2011, the Agency procured a visitor
    access control and badging system for NLRB
    Headquarters, at a cost of $6,973. The purchase
    included installation and a year of onsite support services
    that had a period of performance from October 28, 2011
    to October 27, 2012, at a cost of $1,650. No other

                     15
                 periods of performance are listed in the procurement
                 documentation. The entire procurement was recorded
                 against FY 2011 appropriation.

                 The support services are severable services and are a
                 need of the year in which they are received, unless they
                 cross fiscal years, in which case the Agency may choose
                 to record the obligation for the 12 months of the service to
                 the first fiscal year. So, in this matter the support
                 services were not a bona fide need of FY 2011, as
                 apparently they could not be received until the period of
                 performance began in FY 2012.

Recommendation

             We recommend that the Office of the Chief Financial Officer:

             1. Correct the bona fide needs rule violations by initiating
                the appropriate accounting adjustments to the FY 2010,
                2011, and 2012 appropriations.


COMPLIANCE WITH THE FAR AND INTERNAL CONTROLS

             We identified the following issues unrelated to the bona fide
             needs rule during our testing.

                On September 23, 2011, an Agency manager made an
                 unauthorized commitment when he purchased supplies
                 for the Division of Operations-Management outreach
                 program. The cost of the supplies was $4,941.90 – an
                 amount that exceeded the manager’s micro-purchase
                 spending limit of $3,000. When the manager received the
                 invoice for the supplies, he could not pay it. The manager
                 then contacted a Contracting Officer and requested that
                 the Contracting Officer make the payment. The
                 Contracting Officer paid the invoice amount with his
                 purchase card.

                 The payment by the Contracting Officer was in effect a
                 ratification that he was not authorized to complete. At
                 that time, such authority had not been delegated by the
                 head of the procurement activity to the AMB.
                 Additionally, the Contracting Officer did not seek legal



                                  16
    review, which is required by the FAR and Agency
    procedures.

   On September 23, 2011, the Facilities and Property
    Branch made a request for interior door signs for the
    Washington Resident Office. The request included a
    Justification for Other than Full and Open Competition.
    The basis for the justification was that the vendor had a
    template that complies with the Agency’s existing signage
    and is compliant with the Americans with Disabilities Act,
    and the signs could be shipped out “ASAP.” The
    justification also stated that several vendors could provide
    the door signs, but there would be a 4-5 business day
    turnaround time, and that the “incredibly urgent nature
    of the door signage” does not allow for multiple quotes at
    that time. The amount of the procurement was
    $4,555.90 – an amount above the micro-purchase level.
    The justification was not signed by the Contracting Officer
    and there was no evidence in the contract file that the
    procurement was awarded through a competitive process
    or awarded through the GSA schedule process.

    Staff in the Facilities and Property Branch stated to us
    that the signs were needed because the Washington
    Resident Office moved from the 5th floor to the 6th floor
    of the Headquarters building, and that office interacts
    with the public. They also stated that the Resident
    Office’s move occurred in April 2011.

    The FAR, at 48 CFR 6.301(c), states that contracting
    without providing for full and open competition shall not
    be justified based upon a lack of advance planning or that
    the appropriation is about to expire. Because the
    Resident Office moved 5 months before the signs were
    ordered, the failure to properly plan for the signage
    cannot be used to justify an urgent or compelling need for
    the signs to warrant no competition – particularly in light
    of the fact that other vendors could provide the signs in 4-
    5 days. We note that the signs were not received by the
    Agency until November 21, 2011.

   On September 27, 2011, the Agency added $53,410 in FY
    2011 funds to a procurement action for
    retirement/benefit support services for the Human



                     17
Resources Branch. At the time of the modification, the
period of performance had expired.

Our review of the contract file disclosed several issues. In
April 2010 the Agency entered into a procurement action
for retirement/benefit support services with a period of
performance from April 19, 2010 through December 19,
2010. The original procurement action required that the
vendor provide two individuals to perform the services for
1,280 hours each at a rate of $98.00 per hour. The
procurement action identified the individuals by name
and obligated funds for each individual separately. One
of the two individuals was not cleared to work and the
other initiated and performed 651 hours of service before
walking off the job. The Agency then terminated the
procurement for “convenience.” The documentation of
the termination states that the basis for the termination
was that the vendor’s employee stopped performing the
services and that the vendor could not replace the
employee.

In November 2010, the Contracting Officer executed a
replacement “contract.” The replacement “contract” was
not for 629 hours, the balance of the hours remaining,
but was for the original amount of 1,280 hours procured
and obligated $125,440 in FY 2010 funds, with a period
of performance for 32 weeks.

There is no explanation in the contract file of how the
hours and period of performance were determined. There
is also no explanation in the contract file regarding the
failure to provide two individuals or why funds obligated
for the second individual were not deobligated prior to the
end of FY 2010.

To use prior year’s funding, replacement “contracts” are
limited to the scope of the amount of the obligation
remaining as a result of the breach by the vendor and
must be initiated in a timely manner. Because the
Agency did not initiate a replacement “contract” for the
individual who was not cleared to work in a timely
manner, the funds obligated for that purpose were not
available in FY 2011. Therefore, the only FY 2010 funds
available due to the vendor’s breach were $61,642, with a
period of performance that would run for approximately
16 weeks.
                 18
    The Contracting Officer also modified the replacement
    “contract” to add hours using FY 2011 funds. On
    February 24, 2011, 640 hours were added and
    obligations were incrementally recorded that amounted to
    $62,720. The Contracting Officer, however, did not
    modify the period of performance, which would have
    ended on or about June 17, 2011, or 32 weeks after
    performance began. Without a modification to the period
    of performance, it was impossible for the vendor to
    perform those hours by June 17, 2011. Then on
    September 27, 2011, the Contracting Officer executed a
    modification to add $53,410 to the task order to cover the
    remaining “545 hours.” After FY 2011 ended, $57,937.60
    in FY 2010 funds and $4,517.80 in FY 2011 funds were
    deobligated.

    The proposed initial replacement “contract” was reviewed
    by Special Counsel. That review raised questions
    regarding the procurement action, but did not address
    the bona fide needs issue associated with a replacement
    “contract.” Nevertheless, the Contracting Officer was
    provided with information that a replacement “contract”
    could only be for the remaining part of the procurement
    that had not been met by the vendor and that the
    replacement “contract” must be awarded timely. It was
    also noted that unwarranted delay in terminating a
    procurement action raises the presumption that the
    original procurement action was not intended to meet a
    then-existing bona fide need.

   We identified 10 noncompetitive procurement actions in
    which the Contracting Officer did not certify the accuracy
    and completeness of the justification for less than full and
    open competition.

   We identified four purchase card transactions that
    appeared to be split purchases. Each of the four
    transactions involved two or more purchases with the
    same vendor on the same day that together would exceed
    the micro-purchase level.

   In some circumstances, the Agency requested that the
    contractor sign and return a copy of a modification. In
    addition to those identified in our discussion of bona fide
    needs, we identified 10 procurement actions, involving 4

                     19
                 contractors, for which the contractor’s signature was
                 required but not documented in the Agency’s
                 procurement files. In 6 of the 10 procurement actions an
                 obligation was recorded and the contractor performed
                 despite the lack of a written agreement.

Recommendation

             We recommend that the Office of the Chief Financial Officer:

             2. Review the procurement procedures in place and create a
                system of internal control to ensure that the Agency’s
                procurement process operates in compliance with the
                FAR.




                                 20
APPENDIX
UNITED STATES GOVERNMENT
National Labor Relations Board



Memorandum



Date:         September 7,2012

To:           ~~ e:e~, _Inspector General

From:        ~~CqUisitions Management Branch Chief                                   1



Subject:     Response to Draft Report "End-of-the-Year Spending" (OIG-AMR-70)

I am pleased to have this opportunity to respond to the draft report provided to me on August
10,2012.

The Agency takes seriously the findings and agrees that improvements to internal controls and
financial management are necessary. In that regard, after receiving expertise and guidance
from the National Academy of Public Administration and addressing internal resistance from the
Division of Administration, the Agency established the Office of the Chief Financial Officer
(OCFO), which includes the Budget Branch, Accounting Branch, and Acquisition Management
Branch. This is consistent with the auditor's recommendation presented in the FY 2010
Financial Statement Audit that the Agency establish a system of internal controls to ensure laws
and regulations relating to procurement are properly applied, including establishment of a Chief
Financial Officer (CFO) position outside of the Division of Administration that reports to Agency
heads, as it would improve effectiveness and efficiency in financial operations, reliability of
financial reporting, transparency of financial data, and compliance with applicable laws and
regulations. This new structure eliminates the former stove piped operations and provides a
single integrated financial point of contact, the CFO. The Agency fully expects the CFO will be
a highly qualified financial management professional, who will develop a strong financial
management and internal control structure within the Agency and who will change the culture of
the financial management practice of the Agency. The CFO will infuse more discipline,
structure, and internal control in the financial management lifecycle and throughout the financial
management process.

Further, the Agency is committed to migrating to a substantially improved core accounting
system (Oracle Financials) in early October 2012, adopting new procedures and controls, fully
developing commitment accounting, training users of the system, and holding allowance holders
more accountable to reserve their individual budgetary funds on a timely basis. These changes
will improve financial decision making, decrease procurement challenges, and alleviate the



1David Graham, the Acquisitions Management Branch Chief at all relevant times, recently retired. The Agency has
not yet acquired a permanent replacement.

                                                                                                              1
fiscal year-end strain on the Acquisitions Management Branch (AMB), in particular, which will
lead to opportunities for fewer inadvertent errors.

The Agency offers responses to your recommendations below.

      1. Correct the bona fide needs rule violations by initiating the appropriate accounting
         adjustments to the FY 2010,2011, and 2012 appropriations.


The Agency agrees with your recommendation, but withholds correction of specific actions until
a review is conducted on each individual action by our newly-established OCFO.

After a careful review, assessment, and determination is completed on each action by the AMB
under the newly-established OCFO with assistance from Special Counsel, as appropriate,
accounting adjustments will be made to those actions where required to correct the appropriate
funding year. To complete this review and to accurately apply the appropriate accounting
adjustments, the OCFO is requesting that the Office of the Inspector General (OIG) identify the
specific procurement actions noted by award number, the amount, and any other pertinent
information for each. Thereafter, the OCFO will provide updated information about adjustments
made to the OIG.

      2. Review the procurement procedures in place and create a system of internal control to
         ensure that the Agency's procurement process operates in compliance with the FAR.


The Agency agrees with this recommendation.

In an effort to ensure that the Agency's procurement process operates in compliance with the
Federal Acquisition Regulations (FAR) and to improve internal controls around the procurement
process, the OCFO is planning to develop procedural documents for NLRB program offices in
the area of advanced procurement planning; guidance related to the acquisitions of services,
supplies, and IT requirements; AMB policy and procedures in conjunction with the FAR; and
related directives specific to the mission of NLRB.

The OCFO will issue policies, guidance and directives as determined necessary to ensure a
system of internal control is implemented for the NLRB procurement process to properly and
successfully acquire goods and services required for the mission of the NLRB and in
compliance with the FAR. The guidance and directives will also take into account the process
by which the requiring activities will provide for advanced procurement planning. In this regard,
the AMB under the direction of the CFO will ensure the requiring activities fully understand the
importance of procedures, and the required lead times to properly acquire goods and services
that will alleviate the possibility of bona fide needs rule violations and non-compliance of FAR.

We appreciate both your efforts and the work you performed to bring these important issues to
our attention. We remain committed to making changes as necessary or appropriate to ensure
a properly controlled financial environment for the Agency.

cc:      The Board and Acting General Counsel

                                                                                                    2
